>

f

No. 20-7116

IN THE SUPREME COURT OF THE UNITED STATES

ISABEL DEL PINO ALLEN,
Petitioner,
v.

BOARD OF TRUSTEES OF MIAMI DADE COLLEGE
Respondent,

ON PETITION FOR A WRIT OF CERTIORARI TO
THE FLORIDA'S THIRD DISTRICT COURT OF APPEAL

PETITION FOR REHEARING

ISABEL DEL PINO ALLEN
PETITIONER, PRO SE
4371 SW 15 St.
Miami, FI. 33134
Idelpinoallen@gmail.com
RECEIVED 1
(305) 491-9225
1

JUN 2 2 2021
SUPREME8CTOlmCrLF,RoK

TABLE OF CONTENTS

Petition for Rehearing

1

Reasons for the Propriety of Requesting a Rejoinder ("BIO") from
Respondent to Address Petitioner's Claims in the Request for Certiorari...... 2
The Effect of Dismissing a Pro Se Litigant's Claims, is Tantamount to
Denying a Pro Se Litigant's "Right to be Heard".....................................

5

Unspecific Claims and Insinuation in the Lower Court's Order v.
Petitioner's Assertions in the Request for Certiorari.....................

7

Relevance of Petitioner's Posed Questions to the Current
"Offentlichkeit," or Public Sphere.......................................

11

Conclusion.

12

Certificate of Remittance of Petition in Good Faith

13

Certificate of Service to Counsel.

13

List of Exhibits in Appendix

13

.V
TABLE OF AUTHORITIES
Cases
Bostock v. Clayton County. 590 U.S. (200) 140 S. Ct. 1731;
207 L. Ed. 2d 218; 2020 WL 3146686; 2020 U.S, LEXIS 3252

11

Gideon v. Wainwrisht 372 U.S. 335 (1963)

2

Haines v. Kemer. 404 U.S. 519 (1972)

5

l ' :■ .1

v-'

•' ■

'

-M1

ii

A

University of Tex. Southwestern Medical Center v. Nassar.
570 U.S. 338, (2013)

11

Statutes and Rules
American Bar Association's Model Code of Judicial Conduct.
Canon 2, Rule 2.6(A)................................................................................ 1}5
h ttps-Z/www.americanbar. orgZgroupsZprofessional_responsibilityZpublica tions/
model_code_ofjudicial_conductZmodel_code_of_judicial_conduct_canon_2Z
Florida Civil Rights Act, § 760.01-11, Fla. Stat

4,8

Florida's Whistle-blower's Act, § 112.3187, Fla. Stat.

7,8

Miami Dade College's Procedure 1665.......................
https://www.mdc.edu/procedures/Chapterl/1665.pdf

11

Statutory References: TITLE VI, VII AND VIII, 1964 CIVIL
RIGHTS ACT; TITLE IX EDUCATION AMENDMENTS OF
1972 AS AMENDED; CIVIL RIGHTS ACT OF 1991; TITLE IV
OF THE CIVIL RIGHTS ACT OF 1964 (“TITLE IV”), 42 U.S.C.
§
2000C-6;
GENETIC
INFORMATION
NON­
DISCRIMINATION ACT OF 2008; SECTIONS 1000.05 AND
1001.64 FLORIDA STATUTES; STATE BOARD OF
EDUCATION RULES 6A-19.001 AND 6A-19.010; THE
WHISTLEBLOWER PROTECTION ENHANCEMENT ACT OF
2012; THE WHISTLE-BLOWER’S ACT, SECTIONS 112.318731895, FLORIDA STATUES AND CHAPTERS 741, 784 AND
794, FLORIDA STATUTES; JEANNE CLERY DISCLOSURE
OF CAMPUS SECURITY POLICY AND CAMPUS CRIME
STATISTICS ACT (THE CLERY ACT) AS AMENDED IN 2008;
THE VIOLENCE AGAINST WOMEN REAUTHORIZATION
ACT OF 2013 (“VAWA”); SECTION 4
United States Court of Appeals for the Fourth District, Local Rule 36(b).......3
Unpublished Dispositions, Opinion Distribution.
ca4.uscourts.gov/rules-and-procedures/federaHocal-rules-ofappellate-procedure
U.S. Supreme Court Rule 15.1

3

iii

U.S. Supreme Court Rule 16.1.......

• «•*#««•••••»«

••••

*-»••• *» • •

....6

U.S. Supreme Court Rule 44.1

1

U.S. Supreme Court Rule 44.2

1

C

IV

PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44.1, Petitioner, pro se, Isabel del Pino
Allen, petitions for rehearing of Florida's Third District Court of Appeal ("3d DCA")
unelaborated per curiam affirmance ("PCA") of the lower court's February 26,
2020 "Order Granting Defendant's [Hespondent Miami Dade College's] Motion
for Summary Judgment." (see Exhibit l1)
Petitioner, pro se, notes that the fact the implications in the lower

court's order

are extraneous to Petitioner's filings before the lower court, coupled with
Respondent’s failure to acknowledge Petitioner's certiorari request (which

implies

Petitioner was less than truthful in her request for certiorari and therefore the
request "did not even merit

response") calls into question Petitioner's credibility

and, in essence, denies Petitioner's "right to be heard." Petitioner submits that the
preceding presents "intervening circumstances of substantial or controlling effects
[and..] substantial grounds not previously presented." Rule 44.2

'

Petitioner respectfully proffers that, had this Court deemed Petitioner's posed
questions (which pertained to the probable misuse of EEO rules) irrelevant, and
1 Although the lower court's Order was

filing before the lower court and Petitioner/Appellant’s filings before the appellate
court. The veracity of these facts is demonstrated in this rehearing petition.

1

considering the fact EEO concerns (especially those involving allegations of sexual
harassment) are ubiquitous and prominent in the current public sphere2, Petitioner's
request for certiorari would have been denied on April 19, 2021.3
I)

Reasons for the Propriety of Requesting a Rejoinder ( BIO ) from
Respondont to Address Petitioner’s Claims in the Request for Certiorari
When this Court granted Pro Se and In Forma Pauperis Petitioner Clarence

Gideon certiorari, there was no contention regarding the facts- Gideon had been
charged with a felony under Florida laws, and the trial judge denied Gideon’s request
for legal counsel since Florida law only permitted appointment of counsel for indigent
defendants charged with capital offenses;' the Florida Supreme Court affirmed
through an unelaborated PCA. (Gideon v. Wainwnght, 372 U.S. 335 (1963)
But unlike the facts this Court reviewed when it granted Gideon certiorari, m a
case which ultimately lead to the resolution of the question of whether the right to
legal representation applies to defendants in state court, UM^the facts presented in
Petitioner's February 4, 2021 certiorari request, discussed for the second time during
the May 27, 2021 conference, do not correspond with what the lower court implied in
its February 26, 2020 summary judgment order, which the 3d DCA "PCAd" without
an opinion. Petitioner respectfully proffers that denying certiorari without a

2 The term (Offentlichkeit) is attributed to contemporary German sociologist Jurgen
Habermas, who labeled "the public sphere" the non-physical arena where persistent
issues of societal concerns are discussed for the purpose of interpretation or change.
3 Petitioner's perusal of the cases reviewed during conference on April 16, 2021 reveal
that, while this Court spared Petitioner’s request for certiorari, it denied certiorari
(not rehearing) to 197 petitioners for writ of certiorari.
2

rejoinder from Respondent presenting "arguments for denying the petition* Land]
address ling] any perceived misstatement of fact or law

in the petition that bears on

what issues properly would be before the Court if Certiorari were granted," (Per Rule
15) indicates an assumption that Petitioner's claims are not credible.
By ignoring Petitioner's request for certiorari * and waiving its right to respond
without explicitly stating that it was waiving its right, (in full compliance with Rule
15(1)) Respondent was tactically suggesting to this Court that Petitioner's request for
certiorari was so "off base," it did not merit a response or even an acknowledgment.
Petitioner also proffers that Respondent "banked on" the distinct probability
that - in the absence of a written opinion from an appellate court or a rejoinder from
Respondent - this Court would contrast the facts alleged in Petitioner's request for
certiorari to those implied in lower court's Order, and deduce that Plaintiff's claims
were untruthful and/or irrelevant to the questions posed in the Petition: whether an
employer may use EEO rules for specious purposes and whether the U.S. Equal
Employment Opportunity Commission may turn a blind eye to this type of misuse.
The U.S. Court of Appeal, Fourth District, presents a succinct explication of the
judicious rationale for an appellate court's issuance of an unpublished disposition:
The panel may decide the case by impublished opinion pursuant to Local Buie 36(b).
Unpublished opinions give counsel, the parties, and the lower court a statement of the
4 Petitioner's thorough perusal of this Court's response to other petitions for writ of
certiorari, led Petitioner to infer that the next step - after Petitioner submitted
payment for the docketing fee, in compliance with the April 19, 2021 order denying
her motion to proceed in forma pauperis - would be for a request from this Court for a
Brief in Opposition ("BIO") during the May 27, 2021 conference.

3

reasons for the decision. They may not recite all of the facts or background of the case
and may simply adopt the reasoning ofthe lower court."
Petitioner submits that Florida's 3d DCA did nut "adopt the reasoning of the
lower court" when it issued an unelaborated PCA and denied a written opinion (which
Petitioner requested not only for her benefit, but also for that of the "bench and bar,"
(See Exhibit 2, pg D) since the lower court's Order offers no "reasoning." Instead, the
lower court's Order makes unspecific statements (e.g. what Petitioner claimed was a
protected disclosure, was not; Petitioner was fired for "misconduct") or insinuations
not based on facts (e.g. "Petitioner is unable to established that she was disabled or
that the [Respondent, Miami Dade College] terminated her in May 2015 because of
request (sic) to use a wheelchair couple (sic) days in 2013'e, or that Petitioner's claim
of religious discrimination, per the Florida Civil Rights Act, was not valid7), none of
which relate to the questions posed in Petitioner's certiorari request.
Petitioner proffers that the probable reliance on "the (non-stated) reasoning of
5 Petitioner has never claimed to be disabled. Exhibit 4 ff 62*64 details Respondent's
violation of EEO rules as well as Florida's Civil Rights Act when it allowed an EEO
retaliation charge against Petitioner for having requested that she be accommodated
after having had surgery the previous week and being temporarily in a wheelchair.
6 Exhibit 2 Petitioner's "Motion for Issuance of a Written Opinion, Rehearing, and ReHearing en Banc's" footnote 4, page 6 states: nThe only point ofcontention regarding
factual issues, is Appellee's undocumented statement - which the lower tribunaljudge
referenced in her order- that Appellant claimed she was fired because she requested
the use of a wheelchair two years earlier. The unproven statement is categorically
false, as Appellant noted in her Brief. Appellant has always claimed (andproved) she
was Bred immediately after making a protected disclosure."
7 Plaintiff addresses the discrepancies between her claim of discrimination (per the
Florida Civil Rights Act) and what is alluded in the lower court's order on pgs 10 -11.
4

the lower court," without first requesting and perusing a rejoinder from Respondent
addressing what Petitioner noted in her certiorari request, is tantamount to denying
Petitioner "the right to be heard."8 (ABA's Canon 2, Rule 2.6(A).
II)

The effect of dismissing a pro se litigant’s claims, is tantamount to
denying a pro se litigant’s "the right to be heard."
This Court noted the importance of considering facts exposed by pro se litigants

when it stated in Haines v. Kemer, 404 U.S. 519 (1972):
The only issue now before us is petitioner's contention that the District
Court erred in dismissing his pro se complaint without allowing him to
present evidence of his claims.... Allegations such as those asserted by
petitioner, however inartfully pleaded, are sufficient to call for the
opportunity to offer supporting evidence. We cannot say with assurance
that under the allegations of the pro se complaint, which we hold to less
stringent standards than formal pleadings drafted by lawyers, it
appears "beyond doubt that the plaintiff can prove no set of facts in
support of his claim which entitle him relief." Haines v. Kemer 404 U.S.
519 (1972) (Emphasis added)
Petitioner does not request permission to submit further supporting evidence,
(the attached exhibits substantiate Petitioner’s claims in her certiorari request),
Petitioner respectfully pleads that this Court assess the facts in Petitioner's certiorari
request (which directly relates to the questions posed in said request) vis-A-vis the
evidence and/or arguments to be presented by Respondent in a BIO.
The absence of rejoinder renders Petitioner's claims irrelevant, implies a
8 Petitioner perfunctorily reviewed the docketed related'documents of approximately
75% of the cases discussed during conferences on April 16, April 23, April 30, May 13,
May 20 and May 27, 2021, and found only thirteen (13) petitions for certiorari (other
than that of Petitioner’s) where an acknowledgment from Respondent was not
included among the docketed documents. This Court requested a BIO from
Respondents in the 22 petitions for certiorari where a written opinion from appellate
courts was not on file as well as a waiver from Respondent declining to respond.

5

speculative belief that Pro Se Petitioner's claims must be fallacious and extraneous to
anything that would merit this Honorable Court's perusal, and that an employer's
misuse EEO rules is either improbable or permissible.
Petitioner posits that Respondent's uncharacteristic non-response (which,
Petitioner acknowledges, complies with Ktde 15(1)) was based on the deliberate
stratagem to have this Court assess Petitioner's certiorari request vis-a-vis that
which was

insinuated in the lower court's Order. Therefore, in accordance with Rule

16(l) and "[alffcer considering the documents distributed under Rule 15, the Court
[entered a summary disposition on the merits]" on June 1, 2021 and based its May 27,
2021 decision on the incongruence of the facts presented in Petitioner's certiorari
request vis-a-vis those insinuated in the lower court’s Order, PCAd by Florida's 3d
DCA without a written opinion, which implies that the lower court's claims were so
evident, that they did not warrant a written opinion.
Acknowledging that the hard-to-believe claims in Petitioner's certiorari request
validates the probable incredulity on the part of this Court, Petitioner counteracts the
possible perception that Pro Se Petitioner's claims are false, exaggerated, or
irrelevant to anything that has national significance and thus would be of interest to
this Court, by demonstrating that her assertions are factual and were previously
noted in judicial pleadings with the lower court as well as with the appellate court.
"Respondent has previously repeatedly filed objections. Despite its purposeful absence
of involvement related to the petition for certiorari, Respondent has been vigilan
about its development. On June 2, 2021, the day.. aftg certiorari^was denied
Respondent filed a motion with the lower court (Exhibit 3) to have the
re-opened
and Petitioner be fined financial penalties for "conjecturing. (See Exhibit 2, pgs. 9,10)

6

Petitioner asserts that a perusal of the exhibits/appendices in this Petition for
Rehearing - which includes: Petitioner's "Third Amended Complaint and Demand for
Jury Trial"10 (Exhibit 4); Respondent's "Defendant's Motion for Summary Judgment and
Memorandum of Law" (Exhibit 5); Petitioner's "Plaintiff's Memorandum in
Opposition to Defendant's October 9, 2019 Motion for Summary Judgment" (Exhibit
6); Petitioner's "Motion for Issuance of a Written Opinion, Re-hearing, and Re-hearing
En Banc" (Exhibit 2), and Petitioner's November 12, 2014 email to Respondent's EEO
officer (Exhibit 7) - would confirm that Petitioner is not a charlatan or that her
certiorari request is irrelevant.
Petitioner does not ask that her claims be accepted by this Honorable Court at
face value," only that Respondent be asked to refute Petitioner's claims to allow this
Honorable Court to fairly assess whether certiorari is merited and subsequently give
an opinion concerning the legality of an employers' violation of its EEOrelated rules.
Ill)

Unspecific Claims and Insinuations in the Lower Court’s Order v.
Petitioner’s Assertions in the Request for Certiorari

• The February 26, 2020 Order's unspecific11 claims that "[Petitioner] did not
engage in any protected expression as required under the [Florida Whistle-

10 The case, initially filed in November, 2015 through counsel (Petitioner proceeded in
forma pauperis, in August, 2016 after having exhausted all her savings) went through
three revisions (amendments), five (5) judges, and three (3) attempts at summary
judgment from Respondent.
11 The Order does not state what protected expression Petitioner/Plaintiff engaged in,
or what the two "whistle-blowing" letters allege.

7

blower's Act12] and that "the two letters [of February 9, and April 8, 2015] do
not contain information protected by section 112.3187(5), Florida Statutes."
Petitioner refuted the claim (previously made by Respondent in its "Defendant's
Motion for Summary Judgment and Memorandum of Law in Support," (Exhibit 5,
pg.14) in "Plaintiffs [Petitioner's] Memorandum in Opposition to Defendant's
October 9, 2019 Motion for Summary Judgment," (Exhibit 5, pg. 2) where
Petitioner referenced her "Third Amended Complaint and Demand for Jury Trial,"
(Exhibit 4) where Petitioner specified why her whistle-blower allegation complies
with the Florida's Whistle-blower's Act's requisites: § 112.317(2)(6)(b) & (6) and
which includes a copy of the February 9, and April 8, 2015 letters.
• The Order references Petitioner's charge against Respondent for religion and
disability discrimination charges, per Florida's Civil Rights Act, and states-'
"There is absolutely no evidence to support Plaintiffs claim of religious
discrimination, the basis of the claim being that [Defendant/Respondent]
discriminated against her by refusing to investigate her complaint of
discrimination made after she had been notified of the College's intent to
terminate her employment."
Petitioner specified her religion discrimination charges in her opposition to
summary judgment where Petitioner wrote (See Exhibit 6, pg. 10):

12 Petitioner, cognizant of the U.S. Supreme Court's mission, notes the certiorari
request is NOT to have this Honorable Court evaluate a possible "errors" on the part
of Florida courts, but to attempt to establish her credibility vis-a-vis the misstatement
in the lower court's order, affirmed by the appellate court with its unelaborated PCA.

8

Witii respect to [Petitioner's] charge for [Respondent's] violation of
Florida Civil Rights Act, [Respondent's] EEO Coordinator and Reverend
Joy Ruff accepted a charge of harassment based on religion against
[Petitioner] because the charging party, a Jewish woman, stated that
[Petitioner]
- on an unspecified date and place - had told her that
r
L etitionerj would not want her own daughter to marry a "Presbyterian
a Jew, a Muslim or a Bahai," instead of a Catholic. (Refer to f 69 of
Allen's [Petitioner's] Third Amended Complaint).
Shocked by the acceptance of the misplaced charge, when Allen
attempted to file a similar "harassment against religion" charge against
another Freedom to CommunicBte co-author, also Jewish, who told
[Petitioner] (who identifies herself as Catholic) that she (the Jewish
woman) would not tolerate her son marrying a Catholic... Ruff refused to
accept [Petitioner's] charges (Refer to If 70-71 of Allen’s [Petitioner's]
Third Amended Complaint, ct..."
EEO Coordinator Ruff’s (sic) clearly implied that, with regards to her
vigilance of EEO-related regulations at [Respondent] MDC, "what's good
for the goose is NOT good for the gander." (See Exhibit 6, pgs 10-11)
• The Order states that- "Defendant's decision to terminate [Petitioner's]
employment [was] for misconduct stemming from an internal investigation
that commenced in September 2014," and that ’’[Petitioner] has failed to
show that the [Defendant's/Respondent's] non-discriminatory and legitimate
business reasons for termination were pretextual."
Petitioner refuted the Order's claim (also, claimed earlier in Respondent's motion
for summary judgment (Exhibit 5, pg. 23) in her motion in opposition thereof
(Exhibit 6, pg. 2) where Petitioner notedThe attached performance evaluations (See Exhibit A) for 2013 and 2014
the last, for which [Petitioner] was awarded maximum points, was
signed off by [Respondent] North Campus President Malou Harrison on
December 15, 2014, the same person who wrote in her April 23, 2015
"Intent to Terminate Letter" to [Petitioner] stating that starting in
January, 2014 [Petitioner] had engaged in a harassing campaign against

9

her peers - refute [Respondent's] Counsel Luke Savage's verifiably false
assertion that "The College Had Legitimate and Non-Retaliatory
Business Reasons for Terminating [Petitioner13]'' Allen stating that
starting in January, 2014 [Petitioner].3187, F.S.
• The Order's false implication in the deceptive statement that: "[Petitioner] is
unable to establish that she was disabled or that the [Respondent] terminated
her in May 2015 because of request (sic) to use a wheelchair for a couple days
in 2013", is also reproduced from "Defendant's Motion for Summary Judgment
and Memorandum of Law in Support," (See Exhibit 5, pg 22, last f) and
repeated in Respondent's Answer Brief before the 3d DCA (not included among
the appendices) is NOT based on ANYTHING alleged by Petitioner. This is
noted in Petitioner's DCA-filed "Motion for Issuance of a Written Opinion,
Rehearing, and Re-Hearing en banc." (Exhibit 2, footnote 4, pg. of 6)
e Petitioner’s Assertions in her February 4, 2021 Certiorari Request, that
Respondent Miami Dade College speciously abused EEO rules to castigate
Petitioner for having gone to the media and voiced her objection to the
acquiescence to plagiarism, were stated in duly-filed pleadings:
During her deposition, Ruff admitted conferring with [Respondent's
Associate Provost Bettie] Thompson, [who asked the accusers to charge
Petitioner with EEOrelated violations] on August 29, 2014 six (6) days
before Cannon's charges, 12 days before Vellone's) and 15 days after The
Miami Herald ran an article quoting [Petitioner] Allen... (Exhibit 4, f 17)

13 The verbiage in Respondent's summary judgment motion (Exhibit 5, pg 23) is
identical to that in the lower court's Order. A perusal of the lower court's order and
Respondent's summary judgment will confirm that the lower court's order did not
consider Petitioner's claim, and instead duplicates everything stated by Respondent.
10

During her deposition, held on April 22, 2016, Ruff acknowledged that
she had accepted the charges for sexual harassment, harassment based
on religion, harassment based on sexual orientation and EEOrelated
retahation against [Petitioner] Allen because "Where was an issue with
plagiarism with one of the colleagues, that [Allen] had an issue with
plagiarism." (Exhibit 4 f 21)
Ruff also said she did not abide by MDC's Procedure 1665 in notifying
petitioner] Allen of the charges against her within 10 days after the
EEOrelated charges were filed, and that she waited two months
because "there were other demands in [her] office. (Exhibit 6, f 22) Ruff
refused to say what these demands were. (Exhibit 6, f 23) Ruff said her
investigation was finished in late April 2015, "[months] beyond the sixty
days" [specified in Procedure 1554 (sic) because [Ruff! "needed to consult
with [MDC's] legal officers and administrative officers. (Exhibit 6, f 24)
• Respondent "white-washed" its misuse of its EEOrelated rules when it wrote:
In September, 2014, citing [Petitioner's] behavior before, during and
after the College's investigation concerning the academic integrity of The
Freedom to Communicate, two of [Petitioner's] co-authors filed Charges
of Discrimination/Harassment with the College's [EEO Coordinator]"
(Exhibit 5, f 13)
The above-referenced judicial pleadings - whose copies are included in this
petition for rehearing as exhibits/appendices - firmly demonstrate that absolutely
NOTHING stated in Petitioner's certiorari request is mendacious or exaggerated.
IV)

Relevance of Petitioner's posed questions to
the current "Offentlichkeit." or public sphere

It is undeniable that EEO-related matters are ubiquitous in the public sphere;
this Court has recently issued a multitude of opinions interpreting or re-interpreting
EEO-related issues. Among these are: Bostock v. Clavton Cmmtvy 5Qn U.S. (2020)
140 S. Ct. 1731; 207 L. Ed. 2d 218; 2020 WL 3146686; 2020 U.S. LEXIS 3252, and
University of Tex. Southwestern Medical Centers. Nassar. 570 U. S. 338, (2013)

11

While it would seem improbable that an employer (in this case a Florida public
college) would denigrate sacrosanct EEO rules, (intended to snielu members of
protected groups against discrimination and harassment) and misuse and bastardize
them ■ by prompting, and then accepting charges of sexual harassment, harassment
based on religion, harassment based on sexual orientation and EEO*related
retaliation * to castigate a professor for defying the College vis-a-vis

constitutes

plagiarism, Petitioner asks this Court to consider that it might have happened,
peruse the facts presented by Petitioner and Respondent and subsequently issue an
opinion pertaining the permissible use of EEO-related rules by employers.
CONCLUSION
For the above-cited reasons, Petitioner, Isabel del Pino Allen, respectfully asks
that this Court grant this motion for rehearing, assess the veracity of Petitioner's
claims vis-a-vis the claims and arguments presented by Respondent and grant
certiorari to ultimately submit an opinion as to whether EEC-related rules must be
strictly observed by employers or if EEO rules may be invoked to terminate an

employee for stated-reasons unrelated to any EEO-related violation.
Respectfully-sul

Isabel del Pino
Petitioner, pro se
4371 SW 15 St.,
Miami, FI. 33134
Idelpinoallen@gmail.com
305 491-9225
12

CERTIFICATE OF REMITTANCE PETITION TN POOD fatttt
I, Isabel del Pino Allen, pro se, certify that this Petition for Rehearing is presented in
good faith and not for delay.

abel del Pino AJleW
Petitioner, pro se ^

CERTIFICATE OF SERVICE TO COUNSEL
I, Isabel del Pino Allen, pro se, certify that on June 21, 2021, I served a copy of
this Petition, via U.S. Postal Service to:
Luke Savage
Counsel to Miami Dade Collge
Allen Norton and Blue
121 Majorca Ave. #300
Coral Gables, FI. 33134
(-

jsabel del Pino Allen
Petitioner, pro se ^

13

Additional material
from this filing is
available in the
Clerk's Office.

